<html>
<title> - COMMITTEE BUSINESS MEETING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









 
                       COMMITTEE BUSINESS MEETING

=======================================================================

                                MEETING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2016

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                     Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-148                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001   
   
   
   
   
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                  Jamie Fleet, Minority Staff Director








                            COMMITTEE MARKUP

                              ----------                              


                       Wednesday, March 16, 2016

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:34 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Davis, Walker, 
Brady, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, General Counsel; Erin 
McCracken, Communications Director; Max Engling, Professional 
Staff Member; Cole Felder, Legal Counsel; Nick Hawatmeh, Legal 
Counsel; C. Maggie Moore, Legislative Clerk; Tim Sullivan, 
Staff Assistant; Jamie Fleet, Minority Staff Director; Matt 
Pinkus, Minority Senior Policy Advisor; Khalil Abboud, Minority 
Deputy Staff; Mike Harrison, Minority Chief Counsel; Eddie 
Flaherty, Minority Chief Clerk; and Robert Henline, Minority 
Member Services Director.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee hearing and our meeting. A 
quorum is present, so we can proceed.
    The meeting record will remain open for 5 legislative days 
so that members might submit any materials that they wish to be 
included therein.
    [The information follows:]
    The Chairman. Our Committee is charged with overseeing the 
day-to-day operations and accountability of the House, and that 
is a responsibility I know that each of us take very seriously. 
Back in October, we met to make needed changes to the Members' 
Handbook as a part of a review of the expense reimbursement 
process to explore ways to strengthen the regulations governing 
official expenses.
    This markup is different in that we are doing some forward 
looking in modernizing to help offices run more effectively, 
and it is this Committee's responsibility to provide continued 
accountability.
    We, in conjunction with the House Committee on Ethics, 
House leadership, and other entities, like the CAO, work to 
ensure that hard-earned tax dollars are spent in the most 
transparent manner.
    We regularly review and update the regulations governing 
official resources. We do this by working with House offices to 
determine their needs and how to best educate the offices when 
it comes to complying with the regulations we issue.
    Our Committee also works with the CAO to help ensure 
compliance with our regulations and identify ways to improve 
public transparency of these expenditures.
    We are meeting on a number of housekeeping items that will 
help update our existing regulations to reflect current 
practice, remove outdated terminology, and clarify areas of 
confusion.
    The resolutions being considered by the Committee today 
reflect the continued evaluation of House processes to best 
assist the House community.
    The first Committee Resolution before us updates the Guide 
to Outfitting and Maintaining an Office. This guide, last 
updated in 2005, is a detailed collection of policies and 
regulations applied to the acquisition, transfer, disposal, and 
maintenance of furnishings, equipment, software, and related 
services provided to an office. We want to help offices have a 
very smooth transition so that they can get about the people's 
business as soon as possible.
    This resolution will modernize policies and terminology 
relevant to Member and Committee offices and reflect current 
practices in the House. This will help guide Members when 
setting up their offices and transferring office assets.
    The second Committee Resolution creates a new handbook to 
be used for Eligible Congressional Member Organizations. 
Previously, a large Congressional Member Organization had to 
develop complicated administrative arrangements in regard to 
staffing. At the start of the 114th Congress, the House voted 
to include a reform within House Rules to pave the way for 
specific large organizations and to ease this administrative 
burden.
    For example, the Republican Study Committee and 
Congressional Black Caucus have very onerous rules to operate 
under when staffing their caucus and paying staff. We worked in 
a bipartisan spirit on this resolution to make sure that they 
can staff their caucuses transparently, efficiently, and 
easily.
    This handbook allows for qualifying Congressional Member 
Organizations to establish an account to pay for administration 
expenses, as long as they meet certain parameters, such as the 
membership size, and comply with the regulations developed by 
the committee in the accordance with the House Rules.
    The third Committee Resolution we are considering today 
will provide a number of technical changes and clarifying 
language updates to help offices better understand the Members' 
Congressional Handbook.
    These are good changes that will hopefully help improve 
compliance to the rules, as well as to improve cost savings and 
efficiency. One in particular being a provision allowing 
qualifying Members to share district offices with other Members 
of the House, which will be approved by the Committee on a 
case-by-case basis. This will allow Members who, for example, 
share a town to have one central location to serve the 
constituents of that town. In addition to being more efficient 
and helpful for the constituents, it also has the potential to 
save taxpayers dollars.
    The fourth and final Committee Resolution before us will be 
amending the Committee Handbook. The Committee Handbook was 
last updated over a decade ago, and the vast majority of the 
changes we are proposing today merely reflect this lapse in 
time.
    These changes will provide updates to simply reflect 
current practice by updating the applicable House rules, 
statutes, and removing language which no longer applies.
    The resolution will update regulations pertaining to the 
use of the Frank. It was important that the handbook be updated 
to reflect that many Committees now communicate electronically 
through avenues like Facebook Ads, e-newsletters, and social 
media. Committees can now use their funds to advertise their 
location and contact information, as well as to updates 
applicable use of mass communications.
    I certainly want to thank all the Members of the Committee 
for being here today and for their hard work on these 
resolutions.
    I certainly want to thank our Ranking Member, Mr. Brady. 
These resolutions before us are the combined product of a true 
bipartisan effort, where our staffs have worked very hard to 
achieve and arrive at these changes. I know I speak for the 
Ranking Member when I say that aiding this institution and 
ensuring that we have the right policies in place is our duty, 
one that each of us, and certainly our staff members, take 
seriously.
    With that, I would like to recognize the Ranking Member, 
Mr. Brady, for his opening statement.
    Mr. Brady. Thank you. Thank you, Madam Chair. And thank you 
for holding this markup today.
    Rather than speak to each of the resolutions individually, 
I will submit longer comments for the record and just make a 
few comments here.
    I support these four resolutions. The updates to our 
handbooks and committee guides are long overdue. Some of the 
updates we are making here sure should have been made 10 years 
ago, so it is good that we are doing this today.
    I appreciate your working with my staff on these proposals. 
We have bipartisan agreement on all of them, and I will be 
supporting all of them. We approached this process wanting to 
make our House work better, and I think we did that. 
Commonsense updates and some basic reforms will hopefully 
result in less work in the administrating of our offices, and 
some of these proposals could actually save some Members money.
    I also support the ECMO proposal, and I am glad we 
consulted with Employment Counsel on the final draft. I would 
specifically like to thank Gloria Lett and Ann Rogers of the 
Clerk's Office for their help.
    This proposal makes things easier for these Member 
organizations as we implement these new regulations. I hope 
that we continue working together to resolve any unexpected 
issues. I look forward to continuing to work with you, my 
friend from Michigan, and urge my colleagues to support the 
resolutions before us today. Thank you.
    The Chairman. I thank the gentleman very much.
    Are there any other Members that wish to have an opening 
statement?
    The chair recognizes Mr. Harper from Mississippi.
    Mr. Harper. Thank you, Chairman Miller.
    I would like to commend you and Ranking Member Brady on the 
strong show of bipartisanship represented by the handbooks 
which we are considering today. The update of these regulations 
is overdue, and there is a reason for that. Finding consensus 
on a group of regulations that affect the operations of over 
435 Member offices, all of the standing committees, and several 
Member organizations is no easy task.
    I want to thank the staffs on both sides, majority and 
minority, for their commitment and tenacity in seeing this task 
through. I know you spent countless hours on probably countless 
versions of these regulations, and I want each of you to know 
that we appreciate your efforts.
    Most Members will probably never see these regulations and 
would not likely read them if they did perhaps, but their daily 
activities are governed by them, and it was important to get 
them right. So I thank everyone involved in this and the 
staffs.
    And I yield back. Thank you.
    The Chairman. I thank the gentleman for his comments.
    Any other Members wish to make an opening statement?
    The gentleman from Chicago--excuse me, Illinois, not 
Chicago.
    Mr. Davis. Those are fighting words where I come from, 
Madam Chairwoman.
    Less of an opening statement, but more of a comment, 
because I know this process is going to be very quick today. I 
want to thank you, the ranking member, and all the members of 
this committee, and especially the staff, for working so hard 
to do things to address some issues, as the ranking member 
said, should have been addressed, could have been addressed 
even years ago.
    Simple changes, like allowing Members to share district 
offices, can really save taxpayer dollars. This is a great step 
forward. The committee, both sides, the staff worked very, very 
hard to address issues that are very, very important to 
staffers not only here in Washington, but district staffers, 
you know, where I used to work. And the clarifications truly do 
help them do a better job on behalf of their Member and on 
behalf of this institution.
    So thank you all again for your hard work. I truly 
appreciate it.
    The Chairman. I thank the gentleman from Illinois for his 
comments.
    Any other Member have any comment?
    Okay. I will now call before the Committee our first agenda 
item, which is Committee Resolution 114, a Committee Resolution 
updating the Guide to Outfitting and Maintaining an Office of 
the U.S. House of Representatives. Without objection, the first 
reading of the resolution is dispensed with and the resolution 
is considered read and open for amendment at any point.
    [The information follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    The Chairman. Last updated in 2005, this guide is a 
detailed collection of policies and regulations applicable to 
the acquisition, transfer, disposal, and maintenance of 
furnishings, equipment, software, and related services. The 
guide has been restructured to be more user friendly and 
updated to reflect today's policy.
    Mr. Brady, do you have any statement on the resolution?
    Any other member wish to comment?
    Without that, then I would move that the Committee adopt 
the Committee Resolution. The question is on the motion to 
adopt the resolution.
    All Members who are in favor of the resolution, signify by 
saying aye.
    Any opposed?
    In the opinion of the chair, the ayes have it, the ayes 
have it, and the motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I now call before the Committee our second agenda item, 
Committee Resolution 114, a Committee Resolution creating the 
Eligible Congressional Member Organization Handbook. Without 
objection, the first reading of the resolution is dispensed 
with and the resolution is considered read and open for 
amendment at any point.
    [The information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    The Chairman. Congressional Member Organizations that meet 
the necessary criteria will now be eligible for new spending 
accounts to pay for employees and their administrative 
functions. These new regulations would provide a process for 
the transparent management of needed administrative accounts.
    Mr. Brady, do you have any statement on the resolution?
    Any other Members?
    With that, then I would move the Committee adopt the 
Committee Resolution. The question is on the motion to adopt 
the resolution.
    All Members who are in favor of the resolution, signify by 
saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the motion 
is agreed to. Without objection, the motion to reconsider is 
laid upon the table.
    I now call before the Committee our third agenda item, 
Committee Resolution 114. This is a Committee Resolution 
updating the Members' Congressional Handbook. Without 
objection, the first reading of the resolution is dispensed 
with and the resolution is considered read and open for 
amendment at any point.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    The Chairman. This resolution will insert some clarifying 
language, as well as regulations to mirror the previous 
resolution our committee just adopted. Of particular note, this 
resolution includes a provision allowing qualifying Members to 
share district offices with other Members of the House. This 
will be approved by the Committee on a case-by-case basis.
    For a few Members of the House, their congressional 
districts, again, share the same city or geographic area, so we 
think this is a commonsense addition to allow those Members, 
under very clear and transparent guidelines, the option to 
share a district office.
    Mr. Brady, any statement on the resolution?
    Any other member have a comment?
    I actually have an amendment at the desk, and I will 
recognize myself.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. This amendment would change the Members' 
Handbook to harmonize it with current practice. The amendment 
changes the fixed maximum mileage reimbursement rates in the 
Members' Handbook and requires the Committee to issue yearly 
updates to the community concerning the maximum mileage 
reimbursement rates.
    Almost every year, the GSA and the IRS change the maximum 
mileage reimbursement rates. If the House varies from these 
rates, it can have income tax consequences. Accordingly, the 
Committee has been issuing a ``Dear Colleague'' every year 
informing offices of the maximum rate. This amendment would 
adopt that practice back into our regulations.
    Does any Member wish to speak on this amendment?
    If not, the question is on the amendment.
    I would ask for all Members who are in favor of this to 
signify by saying aye.
    Opposed, say nay.
    With that, the amendment is agreed to.
    Are there any other amendments?
    Then I move that the Committee adopt the Committee 
Resolution as amended. The question is on the motion to adopt 
the resolution.
    All Members in favor signify by saying aye.
    Opposed say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it, the motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    I now call before the Committee our fourth agenda item, 
Committee Resolution 114, a Committee Resolution updating the 
Committee Handbook. Without objection, the first reading of the 
resolution is dispensed with and the resolution is considered 
read and open for amendment at any point.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    The Chairman. Our Committee last updated this handbook more 
than 10 years ago, and therefore this update, we think, is very 
well overdue. Most of the updates are to bring the handbook 
language in line with today's practices.
    Again, this and all of our resolutions offered today are 
part of a commonsense approach and needed updates to ensure our 
regulations best assist offices while also protecting the 
taxpayer dollar.
    Mr. Brady, do you have any comment on this resolution?
    Any other Members?
    Much like the Members' Handbook, this change to the 
Committee Handbook will harmonize it with current practice and, 
again, reflect what the Committee is doing each and every year.
    Any other comments from any of the Members?
    If not, then I move that the Committee adopt the Committee 
Resolution. I have to do the amendment. Excuse me. Where am I 
at here? This is the next amendment. Okay.
    This amendment would change the Committee Handbook to 
harmonize it with current practice. The amendment changes the 
fixed maximum mileage reimbursement rates in the Members' 
Handbook and, again, requires the Committee to issue yearly 
updates to the community concerning the maximum mileage 
reimbursement. This is an amendment that I am offering.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Oh, the Committee Handbook. Okay, I have got 
it. Same language, one for the Committee Handbook, one for the 
Members' Handbook.
    Any Member wish to speak to this amendment?
    If not, the question is on the amendment.
    I ask for all the members who are in favor to signify by 
saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it, the amendment is agreed to.
    Any other amendments?
    I would then move that the Committee adopt the Committee 
Resolution as amended, and the question is on the motion to 
adopt the resolution.
    All Members in favor of the motion, signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it.
    Without objection, the motion to reconsider is laid upon 
the table.
    Any other questions or comments from any of the Members 
before we adjourn? One of the quickest hearings in history.
    Okay. Without objection, the meeting is adjourned.
    [Whereupon, at 10:49 a.m., the committee was adjourned.]

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
